FEC -- Audit of FEC Management of Desktop and Laptop Computers
Federal Election Commission
Office of Inspector General -- Audit Report
Audit of FEC Management of Desktop and Laptop Computers:  Executive Summary
January 14, 1998
If you require the entire printed version of the audit report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
The Office of Inspector General recently completed an audit of the Federal Election Commission (FEC) management of computer laptops and desktops.  The audit fieldwork was conducted from July 1 through September 12, 1997.  The objectives of the audit were to:
1.	Identify and evaluate the adequacy of internal controls over desktop and 				laptop computers;
2.	Evaluate the procedures in place to ensure that computer equipment having 				an acquisition cost over $5,000 is capitalized and that there is 					documentation to support the unit cost of computers under $5,000.
Our audit of the management of FEC computer desktops and laptops was conducted in accordance with the General Accounting Office Government Auditing Standards and included such procedures as considered necessary.  We addressed applicable criteria contained in FEC internal procedures and  Federal regulations and policy guidance.  This is detailed in the report.
The scope of the audit was limited to testing the effectiveness of internal controls over desktops and laptops.  A  description of work performed, sampling methodology used and audit results are detailed in the report.  We discussed the results of our report with the Deputy Staff Director and the Data Systems Development Division (DSDD) Director.
With regard to the results of testing, we found two weaknesses which we have reported as findings.  One,  control over laptops is weak because of the lack of an annual inventory, or another method of accountability.  Two,  we found no guidance provided to FEC divisions which clarify the management and accountability for personal property.  We also include a suggestion to review and update the desktop listing to reflect changes in the assignment of desktops to employees and to separately identify, and dispose of, excess or obsolete equipment.
In addition to incorporating the comments and the OIG conclusions in the Finding and Recommendations section, we have also attached management's response dated January 12,1998, as revised, in Appendix 1.